APPENDIX A
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
FILED
JUL 13 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
KENNETH CHARLES McNEIL, AKA
Chip
Defendant - Appellant.
No. 19-15111
D.C. Nos.
l:10-cv-00275-ALA-LK
1:02-cr-00547-ALA-1
MEMORANDUM*

*This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.

A-l

Appeal from the United States District Court
for the District of Hawaii
Susan O. Mollway, District Judge, Presiding
Submitted July 9, 2020**
Honolulu, Hawaii
Before: OWENS, FRIEDLAND, and R. NELSON,
Circuit Judges.
Appellant Kenneth Charles McNeil appeals
the denial of a petition for a writ of error coram nobis
challenging his 2003 conviction for violating 18
U.S.C. § 2262(a)(1) by traveling in interstate
commerce with the intent to violate a protection
order that prohibited him from being within 100
yards of a relative’s minor child, and subsequently
violating that order. McNeil asserts that he could not
have traveled with an intent to violate the protective
order because he did not believe there would be an
opportunity to violate the protective order. We
review de novo a district court’s denial of a petition
for writ of error coram nobis. See United States v.
Riedl, 496 F.3d 1003, 1005 (9th Cir. 2007). We now
affirm the district court’s denial of McNeil’s petition.
McNeil finished serving his sentence in 2006,
and then completed his three-year term of supervised
release over a decade ago. His current petition is his
fourth post-conviction motion, and his third petition
** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

A-2

for coram nobis relief. To obtain relief under
this “extraordinary writ,” a petitioner must show
that “(1) a more usual remedy is not available;
(2) valid reasons exist for not attacking the
conviction earlier; (3) adverse consequences exist
from the conviction sufficient to satisfy the
case or controversy requirement of Article III;
and (4) the error is of the most fundamental
character.” Hirabayashi v. United States, 828
F.2d 591, 604 (9th Cir. 1987). At a minimum,
McNeil fails to satisfy requirements (2) and (4) of
the above.
McNeil has demonstrated no valid reason
for failing to raise his arguments earlier either on
direct appeal or through a 28 U.S.C. § 2255 petition.
McNeil claims he satisfied this requirement because
he “filed his [current] coram nobis petition with
the district court as soon as possible” after the
government allegedly announced a new legal theory
in response to his second coram nobis petition
that was never presented to the jury. Even
assuming
McNeil’s characterization
of
the
government’s actions is correct, coram nobis
relief is typically confined to addressing newly
discovered fundamental errors (such as factual
errors, egregious legal errors, or extraordinary
exculpatory evidence) that existed at the time of
trial and which are not otherwise subject to
standard time constraints. See, e.g., United States
v. Morgan, 346 U.S. 502, 511—12 (1954) (holding
that writ of error coram nobis was appropriate
vehicle for prisoner’s request that prior conviction

A-3

be vacated for failure to advise him of his right to
counsel, and where “no other remedy [was] then
available and sound reasons exist[ed] for failure to
seek appropriate earlier relief’); Hirabayashi, 828
F.2d at 593—94, 601 (finding coram nobis relief
available where previously concealed documents
provided
irrefutable
proof, unavailable during
the period of defendant’s sentence, that the
wartime
measures
he
was
convicted
of
violating were motivated by racial bias); Navarro
v. United States, 449 F.2d 113, 114 (9th Cir.
1971) (finding coram nobis relief available
where a particular legal defense was unavailable
at time of defendant’s conviction and would
have
provided
a complete
defense
to
defendant’s charge). Because nothing prevented
McNeil from identifying and challenging the
alleged legal error either on direct appeal or via
habeas petition, he fails to demonstrate why his
arguments could not have been raised earlier.
McNeil has also failed to meet his burden
of demonstrating the jury erred at all in convicting
him, much less that it was an error “of the
most fundamental character.” See Riedl, 496 F.3d
at 1006 (internal quotation marks and citation
omitted). The question of intent is a factual
determination to be made by the jury, see Baker v.
United States, 310 F.2d 924, 930 (9th Cir. 1962),
and the jury instructions here were and are
uncontested. Based on the evidence presented at
the trial, a reasonable jury could conclude
that McNeil traveled to Hawaii with intent to
engage in conduct violative of the protective order.
A-4

See 18 U.S.C. § 2262(a)(1). This is a far cry from the
highly unusual situation that would merit this
exceedingly rare form of relief. Riedl, 496 F.3d at
1005; see also Carlisle v. United States, 517 U.S.
416, 429 (1996) (“[I]t is difficult to conceive of a
situation in a federal criminal case today where [a
writ of coram nobis] would be necessary or
appropriate.”
(second alteration in original)
(internal quotation marks and citation omitted)).
Finally, the district court made no error
in denying an evidentiary hearing because the
record conclusively shows that McNeil is not
entitled to relief. See 28 U.S.C. § 2255(b); United
States v. Taylor, 648 F.2d 565, 573 n.25 (9th Cir.
1981) (“Whether a hearing is required on a coram
nobis motion should be resolved in the same
manner as habeas corpus petitions.”).
AFFIRMED.

A-5

APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
FILED
NOV 1 2019
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS
UNITED STATES OF AMERICA,
Plaintiff — Appellee,
v.
KENNETH CHARLES McNEIL,
AKA Chip,
Defendant — Appellant.
No. 19-15111
D.C. Nos.
l:10-cv-00275-ALA-LK
1:02-cr-00547-ALA-1
District of Hawaii,
Honolulu
ORDER
No judge has requested a vote to hear this
case initially en banc within the time allowed by
GO 5.2(a). The petition for initial hearing en banc
(Docket Entry No. 8) is therefore denied.

A-6

FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Paul Keller
Deputy Clerk
Ninth Circuit Rule 27-7

A-7 -

APPENDIX C

Minute Entries and Orders on Motions

l:02-cr-00547-ALA USA v. McNeil CASE CLOSED
on 06/04/2004
U.S. District Court
District of Hawaii
Notice of Electronic Filing
The following transaction was entered on 12/7/2018
at 9:16 AM HST and filed on 12/7/2018

Case Name:

USA v. McNeil

Case Number:

l:02-cr000547-ALA

Filer:
Document Number: 171 (No document attached)
Docket Text:
EO:
The
Court
has
reviewed
and
considered defendant's most recent Petition for
Writ of Error Coram Nobis, (doc. 166) Upon
review, the
Court again finds neither a
fundamental miscarriage
of justice or any
evidence of actual innocence. Further, the Court
once more finds no evidence in the record that
A-8

an error was made "of the most fundamental
character." Hirabayashi v. United States, 828
F.2d 591, 604 (9th Cir. 1987). Accordingly,
defendant's latest petition (doc. 166) is DENIED.
As the Court has found that the record
conclusively shows defendant is not entitled to
relief, defendant's request for an evidentiary
hearing is also denied. See U.S. v. Taylor, 648
F.2d 565, 573 (9th Cir. 1981). (ANN L. AIKEN)
(tl,)

A-9

APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
FILED
OCT 20 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
KENNETH CHARLES McNEIL,
AKA Chip,
Defendant — Appellant.
No. 19-15111
D.C. Nos.
l:10-cv-00275-ALA-LK
l:02-cr-00547-ALA -1
ORDER
Before: OWENS, FRIEDLAND, and R. NELSON,
Circuit Judges.
The panel has voted to deny the petition for
panel rehearing and rehearing en banc (Dkt. no.44).
The full court has been advised of the petition
for rehearing en banc and no judge has requested a
vote on it.

A-10

Appellant’s petition for panel rehearing and
rehearing en banc is DENIED.

A-ll

